<**

21-5070
No.

3fn tli t

Supreme Court of tfje ®mte& states;
CALVIN BERNHARDT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court ofAppeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

CALVIN BERNHARDT
Pro Se Petitioner
Fed. Reg. No. 16006-059
USP Tucson
P.O. Box 24550
Tucson, AZ 85734

f

q

JUL -8 2021

OFFICE OF

■S^clerk

-1-

QUESTIONS PRESENTED
Whether the Eight Circuit’s denial of a certificate of
appealability, where the district court erred or
alternatively abused its discretion in denying the Motion
to Vacate where Mr. Bernhardt made a prima facie
showing of prosecutorial misconduct is irreconcilable with
this Courts’ precedent, such that this Court should
remand to the United States Court of Appeals for the
Eighth Circuit with instructions to issue a certificate of
appealability?
Whether the Eight Circuit’s denial of a certificate of
appealability, where the district court erred or
alternatively abused its discretion in denying the Motion
to Vacate where Mr. Bernhardt made a prima facie
showing that he was deprived of the effective assistance
of counsel in connection with his trial is irreconcilable
with this Courts’ precedent, such that this Court should
remand to the United States Court of Appeals for the
Eighth Circuit with instructions to issue a certificate of
appealability?

\
*

-ii-

PARTIES TO THE PROCEEDINGS
There are no parties to the proceeding other than
those listed in the style of the case.
RELATED CASES
United States v. Calvin Bernhardt, No. l:16-cr-80,
U.S. District Court for North Dakota. Second
Amended Judgment entered Feb. 26, 2019.
United States v. Calvin Bernhardt,No. 17-1325, U.S.
Court of Appeals for the Eighth Circuit. Judgment
entered Sept. 12, 2018.
United States v. Calvin Bernhardt, No. 19-1158, U.S.
Court of Appeals for the Eighth Circuit. Judgment
entered Sept. 6,2019.
Calvin Bernhardt v. United States, No. l:20-cv113, U.S. District Court for North Dakota. Judgment
entered Nov. 18,2020.
Calvin Bernhardt v. United States, No. 20-3715,
U.S. Court of Appeals for the Eighth Circuit.
Judgment entered Apr. 15, 2021.

X

-iiiTABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

RELATED CASES

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL & STATUTORY PROVISIONS
INVOLVED...............................................................

2

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

ARGUMENT:
A.

The COA Standard

B.

Reasonable Jurists Could Debate or, for
that Matter, Agree that Relief is
Appropriate on Petitioner’s Prosecutorial

?

8

\
‘K

-ivMisconduct Claim,

10

C.

Reasonable Jurists Could Debate or, for
that Matter, Agree that Relief is
Appropriate on Petitioner’s Ineffective
Assistance of Counsel Claim.................. 15

D.

This Court Should Summarily Reverse the
Eight Circuit’s Order Denying COA.... 19

CONCLUSION

20

\
V

-V-

INDEX OF APPENDICES
Appendix - A:
Judgment of the United States Court
of Appeals for the Eighth Circuit denying a certificate of
appealability. Dated: Apr. 15,2021
A1
Appendix - B:
Order of the United States District
Court for North Dakota. Dated: Nov. 3, 2020
A2

f

N

-VI-

TABLE OF AUTHORITIES
CASES

Page(s)

Armstrong v. Kemna,
534 F.3d 857 (8th Cir. 2008)

16

Banks v. Dretke,
40 U.S. 668 (2004)

13

Barefoot v. Estelle,
463 U.S. 880 (1983).
Bousley v. United States,
523 U.S. 614 (1998)...........
Brady v. Maryland,
373 U.S. 83 (1963)...

9,10

6,11,12,15

10,13

Driscoll v. Delo,
71 F.3d 701 (8th Cir. 1995)

17

Francis v. Miller,
557 F.3d 894 (8th Cir.2009)

16

Giglio v. United States,
405 U.S. 150 (1972)........
Kenley v. Armontrout,
937 F.2d 1298 (8th Cir. 1991)

6, 7,10,12,14

16

\
V

-viiLeavitt v. JaneL.,
518 U.S. 137 (1996)

19

Maryland v. Dyson,
527 U.S. 465 (1999)..

19

Massaro v. United States,
538 U.S. 500 (2003)...........

11

McNeal v. United States,
249 F.3d 747 (8th Cir.2001)

11

Miller-El v. Cockrell
537 U.S. 322 (2003)..
Napue v. Illinois,
360 U.S. 264 (1959)

9,10

12,13,14

Ramey v. United States,
8 F.3d 1313 (8th Cir.1993)

11

Schweiker v. Hansen,
450 U.S. 785 (1981)...

19

Slack v. McDaniel,
529 U.S. 473 (2000)

9

Steinkuehler v. Meschner,
176 F.3d 441 (8th Cir. 1999)

17,18

Strickland v. Washington,
466 U.S. 668 (1984).............

6, 8,16,18

.s
V

-viiiUnited States v. Bass,
536 U.S. 862 (2002)

19

United States v. Foster,

874 F.2d 491 (8th Cir.1988)

12

United States v. Heppner,
519 F.3d 744 (8th Cir.2008)

13

United States v. Orr,
636 F.3d 944 (8th Cir.2011)

16

United States v. Samuelson,
722 F.2d 425 (8th Cir. 1983) ..

11

United States v. West,
612 F.3d 993 (8th Cir.2010)

12

United States v. Whitehill
532 F.3d 746 (8th Cir.2008)

13

White v. Roper,
416 F.3d 728 (8th Cir. 2005)

16,18

Wiggins v. Smith,
539 U.S. 510 (2003)

16

V
V

-ixSTATUTES
28 U.S.C. § 1254

2

28 U.S.C. § 2106

19

28 U.S.C. § 2255

passim

28 U.S.C. § 2253(c)

3,8,10

\

-1OPINIONS BELOW
The Judgment of the United States Court of Appeals
for the Eighth Circuit denying Petitioner’s motion for
certificate of appealability is unpublished and may be
found at USCA Case No. 20-3715; Calvin Bernhardt v.
United States of America (Apr. 15, 2021) {Appendix Al).
The Order of the United States District Court for
North Dakota denying Petitioner’s motion to vacate and
denying him a certificate of appealability is unpublished
and may be found at USDC Case No. l:20-cv-113; Calvin
Bernhardt v. United States of America (Nov. 18, 2020)
{Appendix - A2).

\

-2-

STATEMENT OF JURISDICTION
The judgment denying Petitioner's motion for
certificate of appealability was issued on April 15, 2021.
This petition is timely filed pursuant to Sup. Ct. R. 13 and
this Court's Order dated March 19, 2020, extending the
deadline to file any petition for a writ of certiorari due on
or after the date of the order to 150 days from the date of
the lower court judgment, in light of the ongoing public
health concerns relating to COVID-19. This Court's
jurisdiction rests on 28 U.S.C. §1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves a federal criminal defendant’s
constitutional rights under the Fifth and Sixth
Amendments. The Fifth Amendment provides in pertinent
part:
No person shall be . . . deprived of life, liberty, or
property, without due process of law.
The Sixth Amendment provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy
the right to ... have the assistance of counsel for his
defense.

*
k
I

t‘.

-3-

This case also involves the application of 28 U.S.C. §
2253(c). 28 U.S.C. § 2253(c) provides that:
(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be
taken to the court of appeals from—
(B) the final order in a proceeding under
section 2255.
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a constitutional
right.

-4STATEMENT OF THE CASE
On June 30, 2020, Mr. Bernhardt, proceedingpro se,
initiated the underlying proceeding in the district court by
filing a timely collateral attack on the judgment of that
court, via the provisionsof 28 U.S.C. § 2255(f)(1) ("§2255").
Mr. Bernhardt's §2255 presented two claims. First, Mr.
Bernhardt argued - and supported that argument with
facts set forth under penalty of perjury in his declaration
and a supporting exhibit which accompanied his §2255
motion, and by reference to relevant portions of the record
- that he was deprived of a fair trial by the decision of the
prosecution to withhold information favorable to the
defense, in violation of Mr. Bernhardt's due process rights.
Specifically, Mr. Bernhardt demonstrated that the
prosecution withheld critical impeachment evidence
against their star witness, Jean Olivar Boston - including
that she had been arrested for "allegedly pimping her
15-year-old daughter to a foreigner online" but was
granted use immunity to testify against Mr. Bernhardt at
his trial - with the intention of manipulating the jury into
believing that Boston expected no benefit from her
testimony. The prosecution's suppression of impeachment
evidence against Boston and their corrupt silence in the
face of her false testimony led to a conviction based on
false evidence and abreakdown in the trial's truth seeking
function.
Mr. Bernhardt's second ground for relief was based on
his deprivation of the effective assistance of counsel due
to his trial counsel's failure to conduct adequate pre-trial
investigation or to adequately cross-examine the

4

-5-

prosecution's star witness. Mr. Bernhardt argued that but
for these failures there was a reasonable probability that
the outcome of the trial would have been different.
On August 21, 2020, the United States opposed the
motion and suggested that the district court should deny
Mr. Bernhardt's motion to vacate. The United States
argued that Mr. Bernhardt's claim of prosecutorial
misconduct failed on the facts and was procedurally
defaulted and that his claim of ineffective assistance of
counsel was lacking in merit.
On November 9, 2020, Mr. Bernhardt filed his reply
arguing that, because the United States failed to
conclusively establish that his legal arguments were
wholly foreclosed or unreasonable or the factual record
before the court absolutely precluded the lower court from
finding facts that would support the claim, the motion for
summary judgment must be rejected.
On November 18, 2020, the district court denied Mr.
Bernhardt's §2255 motion and denied a certificate of
appealability ("COA"). [App. B, A15]. The district court
found that Mr. Bernhardt's prosecutorial misconduct
claim was procedurally barred and failed on its merits and
that Mr. Bernhardt's claim of ineffective assistance was
contrary to the record. Id. On December 28, 2020, Mr.
Bernhardt timely filed his notice of appeal.
On April 15,2021, the United States Court of Appeals
for the Eighth Circuit denied COA. [App. A, Al\ This
petition is timely submitted, within 150 days of the Eighth

-6-

Circuit’s April 15,2021 judgment denyingCOA. [App. A].
REASONS FOR GRANTING THE WRIT
This Court should grant the writ of certiorari. At a
minimum, this Court should order summary reversal
because in denying a certificate of appealability, the
Eighth Circuit has so far departed from the accepted and
usual course of judicial proceedings and sanctioned such
a departure by the district court, as to call for an exercise
of this Court’s supervisory power. This is true because the
district court’s procedural ruling, finding that Petitioner’s
claim of prosecutorial misconduct was procedurally
defaulted, and that court’s substantive rulings that Mr.
Bernhardt’s claims of prosecutorial misconduct and
ineffective assistance of counsel failed on their merits are
irreconcilable and in direct conflict with this Court’s
holdings in Giglio v. United States, 405 U.S. 150,154,92
S.Ct. 763, 31 L.Ed.2d 104 (1972), Bousley v. United
States, 523 U.S. 614, 622,118 S.Ct. 1604,140 L.Ed.2d 828
(1998),Stricklandv. Washington,466U.S. 668,104 S.Ct.
2052,80 L.Ed.2d (1984), and their respective progeny and
was thus clearly debatable amongst jurists of reason
under controlling precedent. Additionally, Petitioner’s
claims of prosecutorial misconduct and ineffective
assistance of counsel provided the required constitutional
dimension for a certificate of appealability.
Specifically, Mr. Bernhardt made a substantial
showing of the denial of his constitutional rights with
respect to his claims of prosecutorial misconduct and
ineffective assistance of counsel. In the district court, Mr.

V'.

I

-7-

Bernhardt submitted allegations which were not refuted
by the record - to the contrary, they enjoyed support from
the record and exhibits attached to Mr. Bernhardt's
motion to vacate and reply to the United States' response
to his motion to vacate - and which entitled him to relief
based on the prosecution's suppression of impeachment
evidence against its star witness and the deprivation of
the effective assistance of counsel at trial.
In his first ground for relief, Mr. Bernhardt presented
a facially valid claim that the prosecution failed to
disclose evidence which Mr. Bernhardt could have used to
impeach their star witness, Jean Olivar Boston ("JOB"),
and on information and belief appears to have knowingly
offered perjured testimony from JOB in its case-in-chief.
Mr. Bernhardt further demonstrated that the withheld
evidence was favorable in that it would have provided the
defense with the opportunity to effectively impeach JOB
to the jury. Finally, Mr. Bernhardt established that the
withheld evidence was material under the applicable
standard. This claim is of constitutional dimension as it
states a denial of Mr. Bernhardt's Fifth Amendment right
to due process. See Giglio v. United States, 405 U.S. 150,
154, 92 S.Ct. 763, 31 L.Ed.2d 104.
In his second claim, Mr. Bernhardt presented a
facially valid claim of ineffective assistance of counsel
based on: 1) counsel's failure to conduct minimally
adequate pre-trial investigation; 2) counsel's failure to
utilize available evidence to effectively cross-examine
JOB; and 3) the reality that the impact the available
impeachment evidence, ignored by former counsel, would

c

-8-

have made on the jury's assessment of the credibility of
JOB is sufficiently outcome determinative to undermine
confidence in the jury's verdict on counts one, two, four,
and five.
Mr. Bernhardt's claim of ineffective assistance of
counsel at trial is of constitutional dimension as it states
a violation of the Sixth Amendment. See Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
(1984).
The lower courts’ resolution of Mr. Bernhardt's claims
are debatable amongst reasonable jurists, as shown
herein. Specifically, the district court's decision(s): 1) to
deny Mr. Bernhardt's ground one claim, where he made a
prima facie showing of prosecutorial misconduct; and 2)
to deny Mr. Bernhardt's ground two claim, where he made
a prima facie showing of ineffective assistance of
counsel, are debatable amongst jurists of reason and
deserve encouragement to proceed further. The Eighth
Circuit’s cursory adoption of the district court’s rationale
to deny Mr. Bernhardt the COA to which he is entitled
should be summarily reversed by this Court.
A. The Certificate of Appealability Standard.
To obtain a certificate of appealability, a habeas
petitioner must make a “substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy
this standard, the petitioner need not demonstrate that he
would prevail on the merits. Rather, he “must ‘[sjhow
reasonable jurists could debate whether (or, for that

•v\

e

-9matter, agree that) the petition should have been resolved
in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.’”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting
Barefoot v. Estelle, 463 U.S. 880, 893 n.4 (1983)) (some
internal quotation marks omitted)).
“[A] COA does not require a showing that the appeal
will succeed.” Id. at 337. As this Court has explained: “We
do not require petitioner to prove, before the issuance of
a COA, that some jurists would grant the petition for
habeas corpus. Indeed, a claim can be debatable even
though every jurist of reason might agree, after the COA
has been granted and the case has received full
consideration, that petitioner will not prevail.” Id. at 338.
In Slack, 529 U.S. at 478, this Court held:
when the district court denies a
habeas petition on procedural
grounds without reaching the
prisoner's underlyingconstitutional
claim, a COA should issue (and an
appeal of the district court's order
may be taken) if the prisoner shows,
at least, that jurists of reason would
find it debatable whether the
petition states a valid claim of the
denial of a constitutional right, and
that jurists of reason would find it
debatable whether the district court
was correct in its procedural ruling.

^V

-10Reasonable jurists could debate the merits of
Petitioner's prosecutorial misconduct and ineffective
assistance of counsel claims. The legal arguments, set
forth below, demonstrate that Petitioner has satisfied the
§ 2253(c) standard because, at a minimum, both the
constitutional question and the procedural one are
“debatable among jurists of reason.” Miller-El, 537 U.S.
at 336 (quotingBarefoot, 463 U.S. at 893 n.4).
B. Reasonable Jurists Could Debate or, for that
Matter, Agree that Relief is Appropriate on
Petitioner’s Prosecutorial Misconduct Claim.
The district court based its decision to deny Mr.
Bernhardt's ground one claim on two findings, both of
which are debatable amongst reasonable jurists. First, the
lower court concluded that, "Bernhardt failed to raise any
Brady claims on his previous appeals; therefore,
Bernhardt's claim is procedurally barred." Second, the
lower court found that "Bernhardt's assertions are
speculative at best, and do not establish that the
government suppressed evidence nor offered perjured
testimony at trial. Accordingly, the Court finds Bernhardt
is not entitled to relief on these claims."
With respect to the lower court's finding that Mr.
Bernhardt's prosecutorial misconduct claim was
procedurally barred for failure to have been raised on
direct appeal, precedent and the record establish that this
finding is at least debatable amongst reasonable jurists.
This is true because absent the Giglio error, there is a

V

t'

-11reasonable probability that Mr. Bernhardt would have
been acquitted.
While it’s axiomatic that movants ordinarily are
precluded from asserting claims that they failed to raise
on direct appeal, See McNeal v. United States, 249 F.3d
747,749 (8th Cir.2001); see also Ramey v. United States,
8 F.3d 1313, 1314 (8th Cir.1993) (per curiam) (citing
Frady, 456 U.S. at 167-68, 102 S.Ct. 1584, for the
proposition that a movant is not able to rely on 28 U.S.C.
§ 2255 to correct errors that could have been raised at
trial or on direct appeal); United States v. Samuelson,
722 F.2d 425, 427 (8th Cir.1983) (concluding that a
collateral proceeding is not a substitute for a direct
appeal and refusing to consider matters that could have
been raised on direct appeal), "[a movant] who has
procedurally defaulted a claim by failing to raise it on
direct review may raise the claim in a [28 U.S.C. § ]2255
proceeding [] by demonstrating cause for the default and
prejudice or actual innocence." McNeal, 249 F.3d at 749
(citingBousley v. United States, 523 U.S. 614, 622, 118
S.Ct. 1604,140 L.Ed.2d 828 (1998)); see also Massaro v.
United States, 538 U.S. 500, 504, 123 S.Ct. 1690, 155
L.Ed.2d 714 (2003). Actual innocence under the actual
innocence test "means factual innocence, not mere legal
insufficiency."i?o«sZe2/, 523 U.S. at 623-24,118 S.Ct. 1604;
see also McNeal, 249 F.3d at 749 ("[A movant] must show
factual innocence, not simply legal insufficiency of
evidence to support a conviction."). To establish actual
innocence, a movant "must demonstrate that, in light of all
the evidence, it is more likely than not that no reasonable
juror would have convicted him "Bousley, 523 U.S. at 623,

N \

-12118 S.Ct. 1604 (citation omitted) (internal quotation marks
omitted).
The debatability of the district court's finding that Mr.
Bernhardt's claim of prosecutorial misconduct was
procedurally barred is established by the impact that the
underlying Giglio error had, and the reasonable
probability that absent that error, Mr. Bernhardt would
have been acquitted by the jury.
The second rationale for the lower court's denial of
Mr. Bernhardt's claim of prosecutorial misconduct, that no
such misconduct occurred, is more than debatable
amongst reasonable jurists, it is quite simply a clear
error. To meet constitutional due process requirements,
it is clear that the government is obligated to protect the
integrity of proceedings that are commenced against
accused persons. See generally Giglio v. United States,
405 U.S. 150, 153-54, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972)
(describing conduct by the government that is
incompatible with the rudimentary demands of justice).
Indeed, the law prohibits conduct and imposes affirmative
duties: (1) the government may not knowingly present
false evidence, see United States v. West, 612 F.3d 993,
996 (8th Cir.2010) (laying out factors that the court must
consider when a due process violation is based on the
prosecution's use of false evidence, which includes false
testimony); (2) the government must correct false
evidence that it did not solicit, see United States v.
Foster, 874 F.2d 491, 494-95 (8th Cir.1988) (emphasizing
that due process requires the prosecutor to correct false
testimony) (citingNapue v. Illinois, 360 U.S. 264,269,79

\\
*

-13S.Ct. 1173,3 L.Ed.2d 1217 (1959)); and (3) the government
must not suppress material evidence, see United States
v. Whitehall, 532 F.3d 746, 753 (8th Cir.2008) (citing
Brady v. Maryland, 373 U.S. 83, 87, 83 S.Ct. 1194, 10
L.Ed.2d 215 (1963)) and United States v. Heppner, 519
F.3d 744, 750 (8th Cir.2008) (discussing the government's
affirmative duty to disclose evidence that is both favorable
to the accused and material to either guilt or punishment).
There is no doubt that, if the government knows that
false evidence is being used to obtain a conviction or is
being presented, the trial cannot in any real sense be
termed fair. SeeNapue, 360 U.S. at 269,79 S.Ct. 1173; see
also Banks v. Dretke, 540 U.S. 668, 694, 124 S.Ct. 1256,
157 L.Ed.2d 1166 (2004) (reiterating that the presentation
of known false evidence is incompatible with the
rudimentary demands of justice). With respect to the
government's affirmative duty to correct false evidence
when it appears, it does not matter that the false evidence
pertains only to a witness's credibility. Napue, 360 U.S. at
269, 79 S.Ct. 1173. It is impermissible for the government
to rely on false credibility testimony to obtain a conviction
because ”[t]he jury's estimate of the truthfulness and
reliability of a given witness may well be determinative of
guilt or innocence, and it is upon such subtle factors as
the possible interest of the witness in testifying falsely
that a defendant's life or liberty may depend." Id.
Consequently, it is the government's responsibility to elicit
the truth when a falsehood is in any way relevant to the
case. Id. at 269-70, 79 S.Ct. 1173 (observing that the
government's affirmative duty to correct what it knows to
be false applies to evidence that goes to the witness's

>\

-14credibility as well as evidence that goes to the defendant's
guilt). ”[I]f ‘the false testimony could... in any reasonable
likelihood have affected the judgment of the jury,'" relief
is warranted. Giglio, 405 U.S. at 154,92 S.Ct. 763 (quoting
Napue, 360 U.S. at 271, 79 S.Ct. 1173).
In the instant case, the prosecution failed to disclose
evidence which Mr. Bernhardt could have used to impeach
their star witness, Jean Olivar Boston ("JOB"), and on
information and belief appears to have knowingly offered
perjured testimony from JOB in its case-in-chief. Mr.
Bernhardt further demonstrated that the withheld
evidence was favorable in that it would have provided the
defense with the opportunity to effectively impeach JOB
to the jury. Finally, Mr. Bernhardt established that the
withheld evidence was material under the applicable
standard and moreover, it appears that had Mr. Bernhardt
enjoyed the benefit of the suppressed evidence at trial, no
reasonable juror would have convicted him.
(

As the foregoing demonstrates, the district court's
decision to deny Mr. Bernhardt's ground one claim is at
least debatable, as the Giglio violation is clear and the
procedural default excused by the outcome determinative
nature of that violation by the prosecution.
The Eighth Circuit denied Petitioner a COA in a
cursory three sentence judgment. [App. A, Al\ Both the
district court’s erroneous ruling and the Eighth Circuit’s
cursory denial of COA are unsupportable on the record
and under this Court’s holdings in Giglio v. United
States, 405 U.S. 150, 154, 92 S.Ct. 763, 31 L.Ed.2d 104

A '\

-15(1972),Bousley v. United States, 523 U.S. 614, 622,118
S.Ct. 1604, 140 L.Ed.2d 828 (1998), and the progeny
thereof. As reasonable jurists could debate the
appropriateness of the district court’s decision as
described, supra, a COA should issue as to this question.
C. Reasonable Jurists Could Debate or, for that
Matter, Agree that Relief is Appropriate on
Petitioner’s Ineffective Assistance of Trial
Counsel Claim.
The district court rejected Mr. Bernhardt's claim of
ineffective assistance of counsel based on its finding that
"Bernhardt's assertions are contrary to the record." This
finding is debatable amongst jurists of reason because,
contrary to the lower court's assessment, the record does
not refute or even speak directly to the specific allegations
of deficient performance which Mr. Bernhardt raised. Mr.
Bernhardt argued that counsel was deficient for failing to
conduct minimally adequate pre-trial investigation and for
failing to utilize available evidence to effectively
cross-examine JOB. Mr. Bernhardt alleged in his verified
declaration that counsel told him "all I need is the page
before and the page after any evidence the prosecutor
introduces during trial," to justify his failure to engage in
any pre-trial investigation whatsoever in this case.
Under controlling precedent, counsel's explicit
announcement that he did not need or intend to conduct
pre-trial investigation deprives his subsequent failures of
any possible reasonable strategic underpinnings.
"‘[Strategic choices made after a thorough investigation

0

-16of law and facts relevant to plausible options are virtually
unchallengeable; and strategic choices made after a less
than complete investigation are reasonable precisely to
the extent that reasonable professional judgments
support the limitations on investigation."' United States
v. Orr, 636 F.3d 944, 952 (8th Cir.2011) (quoting
Strickland, 466 U.S. at 690-91, 104 S.Ct. 2052). "On the
other hand, strategic choices ‘resulting from lack of
diligence in preparation and investigation [are] not
protected by the presumption in favor of counsel."1
Armstrong v. Kemna, 534 F.3d 857,864-65 (8th Cir. 2008)
{cpiotxngKenley v. Armontrout, 937 F.2d 1298,1304 (8th
Cir.1991), and also citing Wiggins v. Smith, 539 U.S. 510,
527, 123 S.Ct. 2527, 156 L.Ed.2d 471 (2003), as stating,
"Strickland does not establish that a cursory investigation
automatically justifies a tactical decision.... Rather, a
reviewing court must consider the reasonableness of the
investigation said to support that strategy.") \Kenley, 937
F.2d at 1304 ("The Supreme Court requires that counsel
make a reasonable investigation in the preparation of a
case or make a reasonable decision not to conduct a
particular investigation." (citing Strickland, 466 U.S. at
691,104 S.Ct. 2052)). "In other words, the strength of the
general presumption that counsel engaged in sound trial
strategy ‘turns on the adequacy of counsel’s
investigation.’" Francis v. Miller, 557 F.3d 894, 901 (8th
Cir.2009) (quoting White v. Roper, 416 F.3d 728,732 (8th
Cir. 2005), in turn relying on Strickland, 466 U.S. at
690-91,104 S.Ct. 2052).
Mr. Bernhardt further demonstrated that counsel was
deficient for failing to utilize the available evidence -

0

-17including information provided by Mr. Bernhardt
indicating that JOB had been arrested and charged with
attempted sex trafficking of a minor, in her home country
in connection with Mr. Bernhardt's case and information
indicating the JOB was the beneficiary of use immunity in
connection with her testimony against Mr. Bernhardt - to
effectively cross-examine JOB and undermine her
credibility to the jury. It should be noted that contrary to
the lower court's order, which mistakenly states that Mr.
"Bernhardt has failed to point to evidence his counsel
should have found," Mr. Bernhardt's declaration described
the evidence, how he obtained it, and a true and correct
copy of that evidence was attached to Mr. Bernhardt's
declaration, submitted to the district court.
Courts have recognized that where "[tjrial counsel
had in his hands material for a devastating
cross-examination" and failed to utilize such evidence,
counsel performed deficiently within the meaning of
Stricklands first prong. Steinkuehler v. Meschner, 176
F.3d 441, 445 (8th Cir. 1999). Similarly, in Driscoll v.
Delo, a panel of the Eighth Circuit Court of Appeals
"conclude[d] that there [wa]s no objectively reasonable
basis on which competent defense counsel could justify a
decision not to impeach a state's eyewitness whose
testimony" was critical to the prosecution, where strong
impeachment evidence was available. 71 F.3d 701, 710
(8th Cir. 1995).
Contrary to the district court's finding, where counsel,
by his own admission, failed to conduct any pre-trial
investigation, his failure to utilize the available evidence

\\

-18to undermine the testimony of JOB cannot be considered
a reasonable strategic decision. In White v. Roper, a
panel of the Eighth Circuit Court of Appeals found that
"the record establishes that counsel's investigation was
too superficial [and] the presumption of sound trial
strategy founders in this case on the rocks of ignorance."
416 F.3d 728, 732 (8th Cir. 2005). Mr. Bernhardt's counsel
was every bit as unprepared and deficient for failing to
utilize the available evidence to cross-examine JOB. As in
White, the record will not support a finding that counsel
made an informed strategic decision, rather, counsel was
constitutionally deficient.
The district court's decision to deny Mr. Bernhardt's
ground two claim is at least debatable amongst
reasonable jurists. See, e.g., Steinkuehler v. Meschner,
176 F.3d 441,445 (8th Cir. 1999). This is particularly true
because Mr. Bernhardt's declaration was the only
evidence offered which could speak to the out-of-court
communications between Mr. Bernhardt and his former
counsel, as the United States elected to forego input from
Mr. Bernhardt's former counsel.
The Eighth Circuit denied Petitioner a COA in a
cursory three sentence judgment. \App. A, Al\ Both the
district court’s erroneous ruling and the Eighth Circuit’s
cursory denial of COA are unsupportable on the record
and under this Court’s holding in Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
(1984) and the progeny thereof. As reasonable jurists
could debate the appropriateness of the district court’s
decision as described, supra, a COA should issue as to

*1

-19this question.
D. This Court Should Summarily Reverse the
Eighth Circuit’s Order Denying COA.
This Court has authority to “reverse any judgment”
brought before it and “remand the cause and direct entry
of such appropriate judgment... or require such further
proceedings to be had as may be just under the
circumstances.” 28 U.S.C. § 2106. Summary reversals are
“usually reserved by this Court for situations in which the
law is well settled and stable, the facts are not in dispute,
and the decision below is clearly in error.” Schweiker v.
Hansen, 450 U.S. 785, 791 (1981) (Marshall, J.,
dissenting) \see, e.g., United States v. Bass, 536 U.S. 862,
864 (2002) (ordering summary reversal because the
decision below was “contrary to” established law);
Maryland v. Dyson, 527 U.S. 465, 467 (1999) (ordering
summary reversal); Leavitt v. JaneL., 518 U.S. 137,145
(1996) (ordering summary reversal where the decision
under review was “plainly wrong”). The Eighth Circuit's
order denying Petitioner's motion for a certificate of
appealability is clearly wrong. Petitioner clearly satisfied
the standard for a certificate of appealability. This case
warrants summary reversal.

N \

-20CONCLUSION
Based upon the foregoing petition, the Court should
grant a writ of certiorari to the United States Court of
Appeals for the Eighth Circuit, vacate the Eighth Circuit’s
order denying COA and remand the matter to the Eighth
Circuit with instructions to grant COA.
Respeetfullysubmitted,
CALVIN BERNHARDT
Pro Se Petitioner
Fed. Reg. No. 16006-059
USP Tucson
P.O. Box 24550
Tucson, AZ 85734

C5uNg nA , 2021

